quinn emanuel

trial lawyers | washington, dc

1300 I Street NW, Suite 900, Washington, District of Columbia 20005-3314 | TEL (202) 538-8000 FAX (202) 538-8100

WRITER'S DIRECT DIAL NO.
(202) 538-8123
WRITER'S EMAIL ADDRESS
derekshaffer@quinnemanuel.com

September 6, 2019
VIA ELECTRONIC FILING AND FEDEX
Hon. Scott S. Harris, Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Americans for Prosperity Foundation v. Becerra, Case No. 19-251

Dear Mr. Harris,
I represent Petitioner Americans for Prosperity Foundation as counsel of record in the
above-captioned case.
In accordance with Rule 37.2(a) of the Rules of the Supreme Court of the United States,
the Petitioner grants blanket consent to the filing of amicus curiae briefs in this case, whether in
support of either party or neither party, both prior to the Court’s consideration of the petition for
writ of certiorari, and, if certiorari is granted, at the merits stage.

Respectfully submitted,

Derek L. Shaffer
cc: Aimee Athena Feinberg, counsel of record for Respondent (via e-mail)

quinn emanuel urquhart & sullivan, llp
LOS ANGELES | NEW YORK | SAN FRANCISCO | SILICON VALLEY | CHICAGO | WASHINGTON, DC | HOUSTON | SEATTLE | BOSTON | SALT LAKE C ITY
LONDON | TOKYO | MANNHEIM | HAMBURG | PARIS | MUNICH | SYDNEY | HONG KONG | BRUSSELS | ZURICH | SHANGHAI | PERTH | STUTTGART

